1919 Pennsylvania Avenue NW
Suite 800
Washington, DC 20006-3401
Robert Corn-Revere
202.973.4225 tel
202.973.4499 fax
bobcornrevere@dwt.com

September 5, 2019
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Teresa Buchanan v. F. King Alexander, et al.
No. 19-274

Dear Mr. Harris:
I am counsel of record for Petitioner Teresa Buchanan in the above-referenced case. I am
writing to inform the Court that Petitioner consents to the filing of amicus curiae briefs by any
entity and in support of either party or neither party.
Sincerely,

Robert Corn-Revere
cc:

Counsel for Respondents

